DOE F 1325.8



SUnited States Government                                                        Department of Energ

memorandum
         DATE:       October 11, 2007                ,                Audit Report Number: OAS-L-08-01

    REPLY TO
    ATTN OF:         IG-32 (A06YT025)

    SUBJECT:         Audit Report on "Follow-up on the Depleted Uranium Process at the Y-12 National
                     Security Complex"
               TO:   Director, Policy and Internal Controls Management, NA-66

                     INTRODUCTION AND OBJECTIVE

                     In September 2002, the Office of Inspector General issued a report on Depleted
                     Uranium Operationsat the Y-12 NationalSecurity Complex, (DOE/IG-0570).
                                                     r(DIT) nrocess.was capable of nroducing wiannon
                     Althnlloh the. rclnlPetpr iranilm
                     components at that time, its continued reliability could not be ensured. Thus, the audit
                     recommended that a series of immediate actions be undertaken to ensure continued
                     viability of the DU process.

                     The purpose of this audit was to determine if the National Nuclear Security
                     Administration (NNSA) had taken action to ensure that the DU process will be able to
                     meet upcoming demand.

                     CONCLUSIONS AND OBSERVATIONS

                     The NNSA took several actions to improve the DU process. Specifically, it:

                        *    requested funding during the budget formulation cycle to support the DU
                             process reliability,
                         *   preserved essential equipment; and,
                        .*   implemented performance based incentives related to DU.

                     However, the DU process is no longer fully operational; scheduled activities required to
                     reestablish the process continue to slip; and not all preventive maintenance activities
                     are being performed. In particular, part of the wrought cycle portion of the DU process,
                     which includes material rolling, forming, and pressing operations, failed in September
                     2005 and has not been reestablished. According to management, this portion of the
                     process must be reestablished by mid-Fiscal Year (FY) 2008 in order to support FY
                     2008 production requirements.
 We also noted key activities required to reestablish DU operations are not being
 completed as scheduled. For example, certain essential equipment, which was
 supposed to be relocated and installed by September 2006, is currently projected to be
 ready by January 2008. In another example, the operational date for a solution heat
 treat furnace used in the heat treating portion of the DU process has been delayed from
 October 2006 to May 2008.

Further, process operability is atrisk because not all preventive maintenance activities
are being performed on the DU process equipment. Specifically, certain preventive
maintenance activities are not being performed on 16 of the 17 major pieces of DU
process equipment. These activities include inspecting and replacing items as
necessary; cleaning and lubricating systems; and, verifying equipment component
functionality.

According to management, this situation occurred primarily due to a lack of funding
and competing priorities with other Department missions. For example, according to
management, DU process equipment may not be provided preventive maintenance
because of the need for such maintenance on higher priority equipment. However, we
noted that a lack of project management controls had likely contributed to the delays.
. or mstance,.until November 2006; the contractor had not assigned an integrating
manager to the project. NNSA's Y-12 Site Office had also determined that the
contractor had not developed a well-defined performance baseline or a risk
management system. The Y-12 Site Office has instructed the contractor to develop a
performance baseline and improve its risk management system for the DU project.

We recognize that the contractor is working to reestablish DU operations in a timely
manner. However, we are concerned with the limited time remaining before the DU
process must be.fully operational. Specifically, the process must be reestablished by
mid-FY 2008 to ensure FY 2008 weapon program requirements are met. In particular,
joint-test assemblies which are used in weapon certification flight tests would be further
delayed if the DU process is not reestablished. Also, the DU process would be unable
to mitigate production risk for on-going life extension programs; support future life
extension programs; or support future reliable replacement warhead design.

We are not making recommendations at this time because of the actions taken by
NNSA to improve the contractor's project management, including the assignment of a
project manager; the development of a performance baseline; and, a risk management
plan.

SCOPE AND METHODOLOGY

The audit was performed from October 3, 2006 to October 2, 2007, at NNSA
Headquarters and the Y-12 National Security Complex (Y-12). The scope of the audit
was limited to the DU process at Y-12.




                                     2
To accomplish the audit objective we reviewed and evaluated documentation related to
the on-going depleted uranium upgrades and process consolidation as well as.
interviewed NNSA Headquarters, Y-12 Site Office, and BWXT Y-12, LLC personnel
responsible for the DU process.

We conducted this performance audit in accordance with generally accepted
government auditing standards.' Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We coordinated this letter with Y-12 Site Office staff on October 2, 2007. Since no
formal recommendations are being made, a formal response is not required. We
appreciated the cooperation of your staff throughout the audit.




                                     ,/6erge W. Collard, Acting Director
                                       National Nuclear Security Administration
                                        Audits Division
                                       Office of Inspector General

cc: Team Leader, Audit Liaison Team, CF 1.2
    Manager, Y-12 Site Office
    Audit Liaison, Y-12 Site Office




                                    3
